Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Dave Jackson, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on 11/16/2020 deponent caused to be served 1 copy(s) of the within
Motion for Leave to Proceed In Forma Pauperis
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

By Overnight Delivery

Tiffany H. Lee, Assistant United
States Attorney
Direct: 585-399-3951]
United States Attorney's Office for
the Western District of New York
100 State Street
Rochester, NY 14614

NOEL FRANCISCO
OFFICE OF THE U.S.
SOLICITOR GENERAL
950 Pennsylvania Ave., NW
Washington, DC 20530
Phone: 202-514-2203

Monica Jeanette Richards,
Assistant United States Attorney
Direct: 716-843-5852
United States Attorney's Office for
the Western District of New York
138 Delaware Avenue
Buffalo, NY 14202

Sworn to me this
Monday, November 16, 2020
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Case Name: United States of America v. Busch (Delgado)
(2)
Docket/Case No:
Index:

